TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                 Internal Revenue Service Contract Security
                         Guard Workforce Inspection



                                        January 10, 2012

                           Reference Number: 2012-IE-R002




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                  DEPARTMENT OF THE TREASURY
                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           January 10, 2012


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       R. David Holmgren
                             Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                    Final Inspection Report – Internal Revenue Service Contract Security
                             Guard Workforce Inspection (# IE-11-011)

 This report presents the results of our inspection to determine whether the Internal Revenue
 Service (IRS) completes steps to provide a reasonable level of assurance that its contract security
 guard workforce is suitable for employment at IRS facilities and whether responsible IRS
 personnel are qualified to oversee the day-to-day operations of the security guard contracts
 assigned to them.

 Synopsis
 We found the IRS generally has controls in place to ensure security guards are suitable for
 employment in IRS facilities; however, additional controls are required to improve oversight.
 No systemic issues regarding the on-site administration of contract security guards exist.
 Nevertheless, the lack of controls in some areas prevented the IRS from accurately and timely
 identifying the population of security guards working under IRS contracts. Additionally,
 Contracting Officer’s Technical Representatives allowed several security guards to work in some
 IRS facilities without escorts before receiving staff-like access (the ability for contract
 employees to enter an IRS owned or controlled facility without an IRS escort), or after re-
 investigations required to maintain access to IRS facilities were overdue. Finally, in one unique
 instance, guards hired to escort IRS employees outside of a Federal building were not subject to
 normal screening procedures.

 Recommendations
 We recommended that the Director, Physical Security and Emergency Preparedness, develop,
 validate, and maintain a comprehensive listing of contract security guards; and require Office of
 Personnel Management background investigations for all contract security guards regardless of
                 Internal Revenue Service Contract Security
                         Guard Workforce Inspection




the type of service provided. We further recommended that the Director develop procedures that
require Contracting Officer’s Technical Representatives to obtain and maintain records to
document that contractors without staff-like access are properly escorted while in IRS facilities;
and follow up on the results of requests for new investigations for contractor employees and
remove contractors from duty who fail to provide information required for the new
investigations. Finally, we recommended that the Director periodically issue memoranda to
remind all Contracting Officer’s Technical Representatives to adhere to internal procedures
related to managing contract security guards.

Response
IRS management agreed with the recommendations in the report, and has initiated or plans to
initiate the processes designed to improve oversight and provide assurance that security guards
are suitable for employment in IRS facilities. Management’s complete response to the report is
included in Appendix IV.
Please contact me at (202) 927-7048 if you have questions, or Kevin P. Riley, Director, Office of
Inspections and Evaluations, at (972) 249-8355.




                                                                                                  2
                                  Internal Revenue Service Contract Security Guard
                                                Workforce Inspection




                                               Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Most Contracting Officer’s Technical Representatives Were Properly
          Appointed and Certified or Trained .............................................................. Page 3
          Although Exceptions Were Noted, Generally Controls are in Place
          to Ensure Security Guards are Properly Investigated ................................... Page 4
                    Recommendation 1:.......................................................... Page 5

                    Recommendation 2:.......................................................... Page 7

                    Recommendations 3 and 4: ......................................................... Page 8

                    Recommendation 5: .................................................................... Page 9

          Guards Hired to Escort Employees Outside One Federal Building
          Were Not Subject to Office of Personnel Management Background
          Investigations ................................................................................................ Page 9
                    Recommendation 6:.......................................................... Page 9

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ...................... Page 10
          Appendix II – Major Contributors to This Report ...................................... Page 11
          Appendix III – Report Distribution List ..................................................... Page 12
          Appendix IV – Management’s Response to the Draft Report .................... Page 13
       Internal Revenue Service Contract Security Guard
                     Workforce Inspection




                Abbreviations

ABIS      Automated Background Investigation System
COTR      Contracting Officer’s Technical Representative
IRM       Internal Revenue Manual
IRS       Internal Revenue Service
NBIC      National Background Investigation Center
OPM       Office of Personnel Management
PSEP      Office of Physical Security and Emergency Preparedness
                             Internal Revenue Service Contract Security Guard
                                           Workforce Inspection




                                             Background

The Federal Protective Service, U.S. Department of Homeland Security, provides and manages
contract security guard workforces for 426 Internal Revenue Service (IRS) facilities throughout
the continental United States. The IRS, however, has limited control over the contracts on-site
administration. The IRS’s Office of Physical Security and Emergency Preparedness (PSEP),
within Agency-Wide Shared Services, oversees nine contracts for security guards for 36 IRS
facilities across eight States and Washington, D.C. This review was conducted to determine
whether the IRS completes steps to provide a reasonable level of assurance that its contract
security guard workforce is suitable for employment at IRS facilities, and that the IRS personnel
who oversee the guard contracts are properly assigned and certified. This inspection was limited
to inspecting the contract security workforce that the IRS directly oversees.
Contract security guards, in most instances, are the first line of defense for securing IRS
facilities, employees, and assets. Security guards typically perform the essential functions of:
entry controllers at either the perimeter or entrance of an IRS facility, internal and external area
foot patrols, vehicle patrols, and central security controllers/alarm monitors. An unqualified
security guard workforce or failure to provide appropriate oversight of security guard contracts
places the IRS, its mission, and its workforce at risk. Such risk includes unauthorized access to
IRS facilities and the potential for harm to IRS employees and/or damage to information
technology infrastructures.
Until a background investigation is completed by the Office of Personnel Management (OPM)
and a copy of the interim or final approval letter concerning suitability for staff-like access1 is
received from the IRS’s National Background Investigation Center (NBIC), IRS contract
security guards cannot report to work unless the contract guard is escorted by an IRS employee
or authorized contractor. The Contractor Security Lifecycle Program is responsible for
collecting security clearance forms from the contractor and forwarding the forms to the NBIC.
Security clearance information is managed through the Automated Background Investigation
System (ABIS).2 Official files for each contractor guard should be maintained by the responsible
Contracting Officer’s Technical Representative (COTR).
We performed this review from July 2011 through September 2011 in the PSEP offices at the
IRS National Headquarters in Washington, D.C., and at the NBIC in Florence, Kentucky. We


1
  Staff-like access is granted by the IRS Office of Personnel Security. Per the Internal Revenue Manual 10.23.2.8(1)
(April 4, 2008), “A contractor employee who has been approved for interim or final staff-like access requires no
escort…. Until a contractor employee has been approved for staff-like access, an escort is required no matter where
the work is located.”
2
  The ABIS provides a method to process, manage and store requests for national security clearances on IRS
employees, personnel security investigations conducted for suitability and security determination purposes on IRS
employees and contractors.
                                                                                                             Page 1
                        Internal Revenue Service Contract Security Guard
                                      Workforce Inspection




also worked on-site in the Austin, Texas; Dallas, Texas; Holtsville, New York; and
Washington, D.C. offices where contract security guards are employed. We conducted this
inspection in accordance with the Council of the Inspectors General for Integrity and Efficiency
Quality Standards for Inspections. Detailed information on our objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                           Page 2
                            Internal Revenue Service Contract Security Guard
                                          Workforce Inspection




                                     Results of Review

The IRS generally has controls in place to ensure that security guards are suitable for
employment in the 36 facilities it is responsible for; however, additional controls are required to
improve oversight. The lack of controls in some areas prevented the IRS from accurately and
timely identifying the population of security guards working under IRS contracts, and allowed
several security guards to work in IRS facilities without authorization, appropriate investigations,
or after staff-like access had expired.
Most Contracting Officer’s Technical Representatives Were Properly
Appointed and Certified or Trained
The role of the COTR is pivotal, because the COTR “ensure[s] that contractors meet the
commitments of their contracts… [and] are often the first to recognize when a program or
contract is under-performing.”3 While isolated deficiencies exist throughout the IRS’s
management of contract security guards, we found that most COTRs who oversee the
administration of these contracts were properly appointed and certified.
Per the Office of Management and Budget’s Office of Federal Procurement Policy, a contracting
officer must formally appoint a COTR to a contract, and, within six months of that appointment,
the COTR must be certified as a COTR by the Federal Acquisition Institute.4 This certification
is granted only after the COTR has successfully taken “competency-based core training and
assignment-specific training.”5 We reviewed the records of four PSEP COTRs and found that
three of the four were formally appointed to their positions via memorandum from the contracts
Contracting Officer. However, one COTR was appointed to a contract only after the COTR and
PSEP Territory Manager were informed of the requirement. According to the current COTR, a
new contracting officer and COTR were assigned to the contract simultaneously. During the
transition, both the old and new contracting officers overlooked the requirement to prepare an
appointment letter for the new COTR. We found that all four COTRs were certified as COTRs
by the Federal Acquisition Institute or met the training requirements for certification.




3
  The Office of Management and Budget’s Office of Federal Procurement Policy memorandum, Revisions to the
Federal Acquisition Certification for Contracting Officer’s Representatives (FAC-COR), dated September 6, 2011.
4
  The Office of Management and Budget’s Office of Federal Procurement Policy memorandum, The Federal
Acquisition Certification for Contracting Officer Technical Representatives, dated November 26, 2007.
5
  Id.
                                                                                                         Page 3
                        Internal Revenue Service Contract Security Guard
                                      Workforce Inspection




Although Exceptions Were Noted, Generally Controls are in Place to
Ensure Security Guards are Properly Investigated
We reviewed a sample of 217 security guard investigative files to determine whether background
investigations were completed, adjudicated, and current. Where background investigations were
pending OPM completion, or had expired, we reviewed documentation to determine whether the
contract guard had been granted interim staff-like access. We also conducted field visits in IRS
facilities serviced by four security guard contracts, and reviewed the personnel files of
206 security guards.
Overall, we found that the IRS effectively managed OPM investigations and adjudicated
investigation results appropriately. We determined that while the IRS has effective controls in
place to ensure contract security guards are prescreened and investigated, isolated deficiencies
still exist in the IRS’s field offices we reviewed.
The Office of Physical Security and Emergency Preparedness could not readily
identify the entire contract security guard workforce

Internal controls should provide assurance that records are complete and accurate. The PSEP
manages nine security guard contracts with guards working in 36 IRS facilities, but the PSEP
does not have a single, comprehensive and accurate list of security guards working in all IRS
facilities. When asked to provide a list of all contract security guards working at IRS facilities,
the PSEP had to initiate a data call to its COTRs managing security guard contracts to obtain the
information. The listing prepared by the PSEP had errors that caused us to question the overall
reliability of the data we received. Specifically, the IRS initially reported 499 security guards
under contract and working in IRS facilities as of July 20, 2011. However, the IRS did not
include six guards actually working in an IRS facility that we identified during one field visit,
and did not identify one guard with duplicate records under an erroneous Social Security
Number. According to revised IRS records, the IRS’s contract security guard workforce consists
of 504 guards contracted to nine IRS security guard contracts. Figure 1 summarizes errors
included in the listing provided.




                                                                                             Page 4
                              Internal Revenue Service Contract Security Guard
                                            Workforce Inspection




       Figure 1: Adjustments to the Population of IRS Contract Security Guards

     Number of security guards reported by COTRs as of July 20, 2011                                           499

              Guards working in IRS facilities but not included on the listing                                  +6

              Guard included on the listing two times                                                            -1

     Total number of security guards after Treasury Inspector General for Tax
                                                                                                               504
     Administration adjustments
    Source: Treasury Inspector General for Tax Administration’s analysis of IRS PSEP records as of July 20, 2011.

Incomplete and inaccurate records increase the risk that security guards may be granted access to
IRS facilities before receiving interim or final approval for staff-like access, which could
compromise the safety and security of IRS employees, systems, and taxpayer information.
Recommendation
Recommendation 1: The Director, PSEP, should develop a comprehensive listing of
contract security guards and ensure that the list is properly validated and updated on a regular
basis.
          Management’s Response: IRS management agreed with this recommendation. The
          Director, PSEP, will modify the Personal Identification Verification Background
          Investigation Process system6 to track and monitor all contractors’ licensing, certification,
          and qualification requirements. The Director also reported that the PSEP is in the process
          of validating every security guard contract in the Personal Identification Verification
          Background Investigation Process system to ensure that the roster of employees is
          current.
Security guards were allowed to work before they were cleared for duty
Per the Internal Revenue Manual (IRM),7 until the COTR receives a letter of interim or final
approval of staff-like access from the National Background Investigation Center (NBIC), a
contractor cannot report for work unless that contractor is properly escorted, regardless of where




6
  The Personal Identification Verification Background Investigation Process is an IRS system designed to track and
report on contractors before, during, and after the background investigation process, from on-boarding through to
separation from the contract.
7
  The IRM is the IRS’s primary official source of instructions to staff relating to the administration and operations of
the IRS. It contains the directions employees need to carry out their operational responsibilities.
                                                                                                                Page 5
                            Internal Revenue Service Contract Security Guard
                                          Workforce Inspection




services are rendered or the work is located.8 We found that the COTRs allowed nine security
guards to work in IRS facilities before the NBIC authorized interim or final staff-like access.
The COTRs at three locations allowed seven guards to report for duty prior to being authorized
interim or final staff-like access. At one of these locations, the PSEP Territory Manager stated
that the contractor did not have enough security guards available to staff all guard posts due to
summer vacations. Therefore, the COTR allowed two guards to report for duty prior to receiving
an interim or final approval for staff-like access from the NBIC. The two guards were assigned
to internal roving posts and were escorted by another roving guard as on-the-job training.
However, the COTR could not provide documentation to demonstrate the guards were in fact
escorted. Later, we verified that these two guards were eventually approved for staff-like access.
All unescorted contract employees are subject to a background investigation, suitable for their
position designation, with favorable adjudication.9 We determined that a COTR allowed a guard
to work in an IRS facility based on an investigation received for another position in the IRS.
However, the IRS later confirmed that the investigation completed on the employee did not meet
the requirements for the position designation of a contract guard.
A COTR must request a new investigation for any contractor employee with a break in service
from an IRS contract of two years or more.10 We determined that a COTR allowed a contract
guard to return to work after a break in service greater than two years from the contract without a
new investigation. In this situation, the COTR mistakenly requested a revalidation of the
contract employee, instead of a new investigation. However, a revalidation is only acceptable in
cases where a contract employee leaves one contract and begins work on another, and the break
in service is less than two years.11
Allowing contract security guards to report for duty before completing suitability assessments
could compromise the safety and security of IRS employees and systems, and taxpayer
information. The IRM clearly documents the requirements for background investigations related
to contractors, and the need to escort contractors without the appropriate background
investigation and authorization of interim or final staff-like access. However, the effectiveness
of these procedures declines without documentation to indicate that the appropriate IRS officials
approved the arrangement and that the contractors were escorted.




8
  IRM 10.23.2.8 (April 4, 2008).
9
  IRM 10.23.2.2(5) (October 16, 2008).
10
   IRM 10.23.2.12(3) (October 16, 2008).
11
   IRM 10.23.2.12 (2) (October 16, 2008).
                                                                                            Page 6
                               Internal Revenue Service Contract Security Guard
                                             Workforce Inspection




Recommendation
Recommendation 2: The Director, PSEP, should develop procedures to require that COTRs
obtain and maintain records to verify that contractors without staff-like access are properly
escorted while in IRS facilities.
           Management’s Response: IRS management agreed with this recommendation. The
           Director, PSEP, will ensure that all guards with staff-like access have at a minimum an
           interim staff-like clearance letter on file prior to starting work under all security contracts.
           The IRS will require all guards who do not have staff-like access to complete a visitor
           access request form. Procedures will be developed that require each site COTR request
           and maintain a valid monthly listing of all guard contractors that are on site. The COTR
           will reconcile the listing to ensure that contractors who do not have staff-like access are
           properly escorted.
Security guards worked with expired IRS authorizations
COTRs are responsible for initiating the re-investigations of all low, moderate and high risk
contract employees and keeping track of the due dates for re-investigations. According to the
IRM re-investigation procedures, 12 the COTR should initiate new investigations for high-risk
contract employees. However, the COTR is only required to initiate Federal tax compliance
checks and fingerprint checks for low- to moderate-risk contractor employees, which includes
contract security guards. The COTR should initiate the re-investigation process every five years
following approval of final staff-like access.
During one site visit, we found the COTR had erroneously allowed 17 contract security guards to
continue working at an IRS facility after their staff-like access expired. As of June 29, 2011, the
authorizations for the guards’ staff-like access had expired as early as April 2011 and as late as
November 2010. The COTR stated the errors occurred because he inadvertently based his
determination of the date of the next investigation on the date of the final staff-like access letter,
instead of on the due date for the next investigation update, which can differ significantly. As a
result, the COTR failed to request the required five year re-investigation for 17 of the 60 security
guards working under the contract. Once this finding was brought to the attention of the PSEP
Territory Manager and the COTR, the 17 security guards in question were removed from their
posts the next day and the COTR resubmitted the contractors for re-investigation.
Our sample of 217 investigative case files maintained by Personnel Security revealed a similar
case at another location. In that case the COTR submitted the request for a re-investigation as
required. However, the re-investigation was terminated, because the subject failed to timely
provide required information.


12
     IRM 10.23.2.14 (April 4, 2008).
                                                                                                    Page 7
                              Internal Revenue Service Contract Security Guard
                                            Workforce Inspection




Delaying re-investigations of contract employees increases the risk unsuitable contractors will
have access to IRS facilities, which could compromise the safety and security of IRS employees
and systems, and taxpayer information.
Recommendations
The Director, PSEP, should:

Recommendation 3: Require that COTRs conduct follow-up procedures to determine the
status of requests for re-investigations. In cases where a contract employee fails to provide
information required for the re-investigation, the COTR should remove the contract employee
from duty.
           Management’s Response: IRS management agreed with this recommendation. The
           Director, PSEP, will review all contractor guard contracts and notify the contractor and
           the COTR to initiate a five-year update (re-investigation) 90 days before expiration of the
           current investigation. The contractor will be removed from duty upon the expiration of
           the investigation if the five-year update has not been favorably adjudicated.
Recommendation 4: Periodically issue memoranda to remind all COTRs of their
responsibility to ensure all unescorted contract employees are approved for staff-like access in
accordance with procedures included in the IRM.

           Management’s Response: IRS management agreed with this recommendation. The
           Director, PSEP, will issue an annual memorandum to COTRs as a reminder that
           contractors must be escorted until they have staff-like access and should not be escorted
           for a period of greater than 180 days without the initiation of an investigation.
A Contracting Officer’s Technical Representative failed to maintain personnel
records on IRS contract security guards
Per the IRM, it is the responsibility of the COTR to collect and retain, for the duration of the
contract, official file records for each contract guard.13 At a minimum, these records should
contain the firearm qualification forms, cardiopulmonary resuscitation (CPR) and first aid forms,
suitability clearances and training certificates. We found that one COTR did not maintain
official records for individual contract security guards and instead relied on the contractor’s
project manager to maintain and update security guard personnel records. This deficiency was
the result of the responsible PSEP employee’s lack of awareness of the IRM requirement to
maintain records on-site. The IRS’s failure to collect and maintain official personnel records on
contract security guards creates risk and makes the IRS’s security program vulnerable because
the contractor could alter the records for unqualified security guards without detection.


13
     IRM 10.2.12.8(3) (October 21, 2008).
                                                                                                Page 8
                        Internal Revenue Service Contract Security Guard
                                      Workforce Inspection




Recommendation
Recommendation 5: The Director, PSEP, should periodically issue memoranda to remind all
COTRs of their responsibility to officially file records for each contract guard, in accordance
with procedures included in the IRM.

       Management’s Response: IRS management agreed with this recommendation. The
       Director, PSEP, will periodically issue communications to advise COTRs of their
       responsibility to officially file records for each contract guard, in accordance with
       procedures included in the IRM.
Guards Hired to Escort Employees Outside One Federal Building
Were Not Subject to Office of Personnel Management Background
Investigations
The IRS manages one contract through which armed IRS security guards escort IRS employees
from the building to public transportation stations and parking lots in the area. The guards are
stationed outside the Federal building between the hours of 7:00 p.m. and 1:00 a.m., but they are
not authorized to enter the building.
PSEP staff informed us that a decision was made that the OPM background investigations were
not required, because these guards are not allowed to enter the Federal building. Instead the
PSEP required the contractor to only provide documentation that a background investigation had
been completed for each security guard in question. We found that the contractor did provide the
required documentation; however, the documentation provided no detail related to the
adjudication process of background investigation results, and the contractor did not forward any
investigation results to the IRS. As a result, the IRS has no assurance that the armed guards
hired to escort IRS employees outside of the Federal building are suitable for such assignments.
Recommendation
Recommendation 6: The Director, PSEP, should require OPM background investigations
and adjudication by IRS officials for all security guards assigned to protect IRS employees.

       Management’s Response: IRS management agreed with this recommendation. The
       Director, PSEP, will require that all area offices initiate the necessary paperwork
       requesting that an OPM background investigation and adjudication be completed for all
       security guards. Additionally, the COTR in each area will identify guards needing
       background investigations for staff-like access and will ensure that their contractors
       initiate the process to have those security guards investigated through OPM.




                                                                                           Page 9
                        Internal Revenue Service Contract Security Guard
                                      Workforce Inspection




                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS completes steps to ensure that contract
security guards are suitable for employment at IRS facilities, and that the acquisition workforce
responsible for the day-to-day administration and contractor adherence to contracts met the
minimum requirements in order to monitor the contracts that are assigned to them.
The scope of our review was limited to the security guard contracts managed by the IRS and did
not incorporate any of the security guard personnel and contracts managed by the Federal
Protective Service, U.S. Department of Homeland Security; and the U.S. General Services
Administration.
I.     Determined whether the contract security guards providing services to the IRS are
       suitable for employment.
       A. Analyzed a judgmental sample of IRS contract security guards to determine if the IRS
          had documentation to support that the security guards received suitability clearances
          before reporting for duty.
       B. Determined if the IRS had collected, forwarded for action, and retained the results of
          the contractors’ background investigation.
       C. Determined if the IRS obtained assurance that all contract security guards have either
          received satisfactory results from their background investigations or that discrepant
          information was appropriately adjudicated.
       D. Determined if contractors had reported to duty without the COTR receiving a copy of
          the suitability letter authorizing interim or final approval of staff-like access from
          NBIC.
       E. Determined whether the COTRs maintained comprehensive official files for each
          security guard.
II.    Determined whether the COTRs assigned to security guard contracts have met the
       minimum requirements in order to monitor contracts assigned to them.
       A. Determined whether the COTRs had been formally appointed to applicable security
          guard contracts.
       B. Determined whether the COTRs had met the training requirements for or had
          received the Federal Acquisition Certification for Contracting Officer’s Technical
          Representatives.

                                                                                           Page 10
                      Internal Revenue Service Contract Security Guard
                                    Workforce Inspection




                                                                 Appendix II

                Major Contributors to This Report

Kevin P. Riley, Director
James A. Douglas, Supervisory Program Analyst
John L. da Cruz, Program Analyst




                                                                         Page 11
                      Internal Revenue Service Contract Security Guard
                                    Workforce Inspection




                                                                   Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Chief Human Capital Officer OS:HC
Director, Physical Security and Emergency Preparedness OS:A:PSEP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       IRS Human Capital Officer OS:HC




                                                                         Page 12
        Internal Revenue Service Contract Security Guard
                      Workforce Inspection




                                                  Appendix IV

Management’s Response to the Draft Report




                                                           Page 13
Internal Revenue Service Contract Security Guard
              Workforce Inspection




                                                   Page 14
Internal Revenue Service Contract Security Guard
              Workforce Inspection




                                                   Page 15
Internal Revenue Service Contract Security Guard
              Workforce Inspection




                                                   Page 16
Internal Revenue Service Contract Security Guard
              Workforce Inspection




                                                   Page 17
